>

CasegNo1

&

Jn the Supreme Gawd of the ‘United Stated of Gm&dca

i

i
L.E. Pauli Coffey

1

Petitioner

m

vs.

v?

1
State of South Carolina
Respondent

On Petitioner of Writ of Certiorari
7th Circuit Court of Appeals

V

5

.J

Petition for Writ of Certiorari

A

1

Si

n

4

■■

■c.>

•>

L.E. Pauli Coffey
3493 Birchwood Ave

FILED
JAN 0 7 2021

i1

§nPRFEMEFCPU RTLURSK

Indianapolis, IN 46205
305-340-8316

■j

■1

<

'1
1

■I

.S
'J
'■I

4

t

x

j

y
-r

.i

V.
■A

■j

QUESTION(S) PRESENTED TO THE COURT
1.

Do Americans have the inalienable 14th Amendment right to Due

Process?
2.

Do American women have the inalienable 14th Amendment Right to

Due Process?
3.

Do Americans with disabilities have the inalienable 14th Amendment

Right to Due Process?
4.

Do American citizens have the inalienable 4th Amendment Right to

privacy in America?
5.

Do Americans who are female have the inalienable 4th Amendment

Right to Privacy in America?
6.

Do Americans with disabilities have the inalienable 4th Amendment

right to Privacy in America?
7.

Do American citizens have the inalienable 8th Amendment Right to be

free of excessive fines/bonds/surety?
8.

Do American women have the inalienable 8th Amendment Right to be

free of excessive fines/bonds/surety?
9.

Do Americans with disabilities have the inalienable 8th Amendment

Right to be free of excessive fines/bonds/surety?
10.

Do states have the Sovereign Immunity to violate a citizens Right(s) to

Due Process?

2

List of Parties
[X]

All Parties are listed in the caption

Related cases
Gateway v. Coffey 2016*CP*07*02261 14th Judicial Circuit
Court of Common Pleas - South Carolina
Gateway v. Coffey 2016-LP-07-00637 14th Judicial Circuit
Court of Common Pleas* South Carolina
Gateway v. Coffey 2018*001743 South Carolina Court of Appeals
Coffey v. State of South Carolina 1-19*CV*3064*TWP*DPL
RE: 18-05614-dd-Coffey
RE: Smock/Coffey Book 3459/Page3106 CNF#2016005336

Opinions Below
It was the Opinion of the US. District Court, Southern District of
Indiana, that the Court did not have jurisdiction over the state of South
Carolina in the matter of Coffey v. South Carolina because the state of South
Carolina enjoys Sovereign Immunity to violate Petitioner's privacy and due
process as well as Petitioner's Constitutional Rights including, but not
limited to, Petitioner's right(s) to Due Process and Privacy. (March 23, 2020)

3

It was the Opinion of the 7th Circuit Court of Appeals that the decision
of the U.S. District Court, Southern District Indiana, that jurisdiction did not
exist because the state of South Carolina enjoys Sovereign Immunity to
violate Petitioner's privacy and due process as well as Petitioner's
Constitutional Rights to include, but not limited to, Petitioner's Right(s) to
Due Process and Petitioner's Right(s) to Privacy rights.

The above listed Opinions deny Petitioner equal justice under prevailing U.S.
law because the laws were not applied equally to Petitioner.

Jurisdiction
Petitioner seeks this Writ of Certiorari under USC § 1254

Constitutional and Statutory Provision Involved
4th Amendment Right to Privacy
8th Amendment Right to Avoid Excessive Fines
14th Amendment Right to Due Process
Fed. R. Civ. P. § 12
Fed Rules of Evidence § 301
Dodd Frank Act
Constitution of the state of South Carolina Article § 3
Constitution of the state of South Carolina Article § 9

4

Constitution of the state of South Carolina Article § 10
Constitution of the state of South Carolina Article § 12

STATEMENT OF THE CASE
Comes now Petitioner, L.E. Pauli Coffey, pro se, an American
female, grandmother, and DAY widow with disabilities, and states the
following;
1.

It has long been established, and more recently reaffirmed by this

Court in Timbs v. state ofIndiana (2019), that states do not enjoy Sovereign
Immunity to violate a citizen's 14th Amendment Right to Due Process. In
this matter Due Process encompasses nearly the full scope of Petitioner's life
beginning with her privacy and ending with her safety. In our digital age,
privacy is not only a process. Privacy can literally mean the difference
between life or death, citing the Daniel Anderi Judicial Security Act.
Whether it is missed employment opportunities or for the protection of life
and limb for one's family, privacy is everything in our world now dominated
by the digital acquisition and sale of personal and private information, with
or without our consent, and, many times, as the result of the demand of those
who require we surrender of our privacy to satiate their "business models".
The state of South Carolina OF ITS' OWN VOLITION chose to recklessly,
wantonly and willfully ABANDON its' legal DUTY to acknowledge, preserve,
protect, restore and uphold Petitioner's Privacy, her Rights to Privacy, her

5

Due Process, her Right(s) to Due Process, her exclusion from excessive fines,
her Right to be free of excessive fines, equal justice and Petitioner's right to a
trial by her peers under the U.S. Constitution and the Constitution of the
state of South Carolina to the FINANCIAL BENEFIT of the state of South
Carolina.

2.

Both the US District Court, Southern District of Indiana, and the 7th

Circuit Court of Appeals ruled that Petitioner does not have ANY rights and,
therefore, the state of South Carolina enjoys Sovereign Immunity to violate
Petitioner's rights Petitioner is no more than a disabled, female animal who
does not enjoy the protections of our laws. Petitioner does not agree that she
is an animal and she further believes that no court has the ability to pick and
choose which citizens enjoy rights and which citizens do not [IF] a citizen can
show that their complaint filed meets the requirements of Article III.
Petitioner's complaint has always satisfied the requirements for Article III.

BRIEF HISTORY
3.

In January, 2016, Petitioner was made a widow by the Veterans

Affairs/Medical University Hospital System [V.A./MUSC] in Charleston,
South Carolina, when its' doctors performed a federally banned surgical
procedure which caused her husband to pass away seventy nine (79) hours
after being released from care with a "clean bill of health" by the doctors who

6

performed the banned procedure without concern for the inevitable outcome
to Petitioner or her husband. Probate in South Carolina was immediately
begun by one of the finest probate attorneys in South Carolina and concluded
by THE probate judge of Beaufort County, South Carolina. Petitioner, as
evidenced, was the exclusive owner of her home in Beaufort, South Carolina,
without debt. Appendix B, Ex. B)

4.

On September 21, 2016, the state of South Carolina took it upon itself

to violate Petitioner's Right(s) to due process by violating her privacy and her
Right(s) to privacy, when, despite myriad state records showing Petitioner
did not owe a mortgage, it granted Gateway Mortgage Group LLC [Gateway]
a lien on Petitioner's waterfront home without Petitioner's consent or
knowledge, in direct violation of Article(s) §10 and § 22 of the Constitution of
the state of South Carolina guaranteeing "no person shall be finally bound by
a judicial decision of an administrative agency affecting private rights except
on due notice and an opportunity to be heard" . The state of South Carolina
never notified petitioner that a lien had been applied for nor that it had been
"awarded" by the state of South Carolina to [Gateway] upon Petitioner's
home. Petitioner was not allowed to respond to this "award" of lien.

5.

In October 2016, the state of South Carolina again violated Petitioner's

Rights to Due Process by violating her privacy and her Right to privacy when

7

it allowed [Gateway] to file a LisPendens/ Foreclosure action, a public action,
against Petitioner for a mortgage that she did not owe and then posting
Petitioner's name and address on the Beaufort County Public Index, a
consumer reporting index created and maintained by the state of South
Carolina to its' own financial benefit, as nearly every Lis Pendens sale of a
home on the water in South Carolina ultimately leads to a real estate sale
and an increase in property tax collected by the state of South Carolina.
(Appendix B; Ex A.)
a.

Beaufort, South Carolina, is a small military town with

approximately 13,000 permanent residents in 2016 who rely in large part on
the military and federal government for employment that exceeds minimum
wage work in fast food restaurants in Beaufort, South Carolina. A Lis
Pendens action in a background check is career suicide in a small military
town. Petitioner was ultimately denied work for which she was the most
qualified applicant. (Appendix B; Ex.C)
b.

A partial mortgage, never completed, did exist in Petitioner's

husband's name. Prior to Sept 2016, [Gateway] did not feel compelled to
pursue a completed mortgage with Petitioner's husband. A deceased man
cannot enter into or complete a mortgage.
c.

A Mortgage company cannot create, modify or complete a

mortgage without the inclusion of a borrower. (Dodd Frank Act 2016)

8

6.

On October 28, 2016, Petitioner was served with Notice of the Lis

Pendens action filed against her in Beaufort County, South Carolina.
Petitioner immediately served Notice on the Equity Court in the 14th
Judicial Circuit of South Carolina that she did not owe a mortgage and that
her home did not secure a mortgage.
a.)

The state of South Carolina utilizes Equity Courts for matters of

deficiencies in lending.

7.

Between October 28, 2016, and August 1, 2017, at great financial loss

and causing extreme anguish, Petitioner filed Notice after Notice with the
Equity Court for the 14th Judicial Circuit of South Carolina showing that she
did not owe a mortgagee Petitioner retained counsel, Shawn French, who
took thousands of dollars in compensation and ran, never providing
Petitioner will real representation beyond fewer than five hundred (500)
words in mis-titled filings that amounted to nothing more than a word salad
and which did not represent the state of south Carolina's prevailing laws.
Petitioner filed Notice with Beaufort County, South Carolina, the 14th
Judicial Circuit of South Carolina and with [Gateway] showing that she did
not owe a mortgage, providing Beaufort County, the 14th- Judicial Circuit of
South Carolina and [Gateway] with the state of South Carolina's own records
showing that Petitioner did not owe a mortgage and demanded that her name
and likeness be removed from the Beaufort County South Carolina Public

9

Index as a debtor. Beaufort County, the 14th Judicial Circuit of the state of
South Carolina and [Gateway] refused to comply with Petitioner's demand.
Petitioner filed an initial Affirmative Defense Response that was ultimately
ignored by the court. On August 1, 2017, Judge Marvin Dukes III vacated
the matter of Gateway Mortgage Group LLC v. L.E. Pauli Coffey, 2016-CP07-02261/ 2016-LP-07-00637, from the Equity Court of South Carolina due to
lack of jurisdiction as Petitioner was not deficient in lending as she owed no
mortgage.

8.

Rather than allowing Petitioner's South Carolina nightmare to end on

August 1, 2017, and she finally being allowed to fully process her husband's
death nearly two years after the fact and pursue [V.A./MUSC] for her
husband's wrongful death, the state of South Carolina decided it wasn't done
violating Petitioner's Constitutional Rights and allowed [Gateway] to appoint
its' own counsel R. Thayer Rivers Jr., as the Special Referee/ sole adjudicator
in the matter of [Gateway] v. Coffey. This act violated not only Petitioner's
Constitutional Rights to Due Process and Equal justice, it also violated the
Right(s) established [BY] the Constitution of the State of South Carolina for
its' citizens, guaranteeing that no person could be prosecuted and adjudicated
by the same person. (Appendix B; Ex. D)
a.)

Special Referee is an appointed position and not an elected

position in the state of South Carolina. Thayer Rivers Jr. was appointed by

10

the state of South Carolina as a Special Referee to represent the state of
South Carolina while he was attorney of record for [Gateway] and then
[Gateway] appointed him to the matter of [Gateway] v. Coffey.

9.

Petitioner immediately filed her objection to [Gateway's] appointment

of its' own counsel as adjudicator with the 14th Judicial Circuit of South
Carolina and Beaufort County, South Carolina. Petitioner's filed three(3)
objections in total to [Gateway] appointing its' own counsel and all three (3)
objections were ignored by [Gateway], the 14th Judicial Circuit and the state
of South Carolina.

10.

Between October 28, 2016, and October 10, 2018, Petitioner filed no

fewer than thirty three (33) Demands for Due Process and three (3) Demands
for a Jury trial, all of which are guaranteed by the US Constitution and the
Constitution of the state of South Carolina Article § 9 but which were all
ignored by the Court and by the state of South Carolina in violation of
Petitioner's Constitutional Right(s) to Due Process. (Appendix B; Ex. A)
a.)

Glanvill's Treastise (appr. circa 1188) states that "fine by the

Lord King... means that "he" is to be fined by oath of lawful men of the
neighborhood but so as not to lose any property to maintain his position."
1.)

This rule represents not only the requirement that a fine

or surety be reasonable but that it can only be issues by a "neighborhood"

11

which is a jury of our peers. Thayer Rivers Jr., on behalf of the state of South
Carolina, refused Petitioner's RIGHT to REVIEW by a jury of her peers
thereby denying her equal justice and due process.

11.

Thayer Rivers Jr, attorney for [Gateway] and adjudicator in the matter

of [Gateway] v. Coffey, rendered his Decision to the financial benefit of his
client and South Carolina, issuing a gender bending Order that instructed
[Gateway] to write a mortgage in the name of Petitioner's deceased husband
and to use that illegal mortgage as the instrument allowing Thayer Rivers Jr.
to sell Petitioner's home "on the steps of the Beaufort County Court House"
on October 11, 2018, in contradiction to South Carolina law allowing no fewer
than thirty days between Order and Sale. (Appendix A; Ex C)
a.)

There was no mortgage at the time a lien was placed on

Petitioner's home and there was no mortgage at the time Petitioner was
served with notice of Lis Pendens action.
b.)

One cannot create or modify a mortgage without the

inclusion of a borrower. A deceased man cannot legally be a borrower. (Dodd
Frank Act)
1.)

The South Carolina bible for Real Estate law from

at least 2014 to 2018, "The Essentials", cites Federal Land Bank v. Ledford,
9 SE 2d 804 (South Carolina 1940) as exclusive justification that in South

12

Carolina a person not party to a contract cannot be held responsible for that
contract.
c.)

12.

A deceased person cannot be a borrower.

Petitioner did timely filed an Appeal in the South Carolina Court of

Appeals, not realizing that not only was Thayer Rivers Jr. an attorney for
[Gateway] while acting as adjudicator for the state of South Carolina in the
matter of [Gateway] v. Coffey but he was also responsible, in part, for the
appointment of the entire Appellate Bench in the Court of Appeals for the
state of South Carolina in his capacity as a state of South Carolina state
representative. Petitioner was put on notice that in order to save her home
from sale during Appeal, she would have to provide bond/surety in the
amount of seven hundred thousand dollars ($700,00.00) directly to the state
of South Carolina in answer to a fake mortgage valued at one hundred nine
thousand dollars ($109,000.00), a fake mortgage that did not even exist at the
time Lis Pendens was filed against Petitioner by [Gateway]. Ultimately,
Petitioner's appeal was denied because Petitioner could not produce a
transcript for an event which state of South Carolina public court records
show never happen. (Ex. G)
a.)

Citing: Timbs v. State ofIndiana Syllabus (2019), "Fines can

also be employed, not in service of penal purposes, but as a source of revenue.

13

The historical and logical case for concluding that the 14th Amendment
incorporates Excessive Fines Clause is overwhelming".
b.)

13.

"Fines can be used to silence... a political opponent"

In a last ditch effort to save her home, Petitioner went so far as to

incur the unavoidable cost of filing bankruptcy only to have the bankruptcy
court in Columbia, South Carolina, as evidenced in previous filings, rule that
Petitioner could not file bankruptcy because she had no creditors AND that
[Gateway] was free to sell Petitioner's home. As a result of the bankruptcy
court's early decision, Petitioner felt there was no reason to continue
communicating with the bankruptcy court beyond making payment in full for
a failed bankruptcy that will remain on Petitioner's credit history for at least
three (3) years.

14.

On February 2, 2019, Petitioner packed her two (2) dogs and her (2)

cats and some of her belongings and left Beaufort, South Carolina, leaving
behind that which she could not fit into her pick-up truck. Petitioner lost her
husband's collector motorcycle, his vehicle, treasured family heirlooms, mid­
century antiques, cookware, clothing, tools, etc.

15.

Petitioner returned to Beaufort, South Carolina, one more time to once

again put her home up for sale, notifying [Gateway] and the courts that in

14

the event of the successful sale of her home, she was willing to pay the fake
mortgage in the interest of ending this nightmare. As evidenced to the lower
court(s), Petitioner secured sale of her water view Beaufort, South Carolina,
home in the amount of one hundred seventy five thousand dollars
($175,000.00).

16.

Four (4) days before closing on Petitioner's Beaufort, South Carolina,

home, the sale of her home was stopped because of the fake one hundred and
nine thousand dollar mortgage ($109,000.00) and fake foreclosure ruling.
Instead of Petitioner's home being sold by Petitioner so that her South
Carolina nightmare could end once and for all, [Gateway] took control of
Petitioner's property for the purpose of allowing its' attorney, Thayer Rivers
Jr., to sell it back to [Gateway] "on the steps of the Beaufort County Court
House" as adjudicator for the state of South Carolina for approximately one
hundred and forty one thousand dollars ($141,000.00), an amount less than
Petitioner had secured for her home in sale, at which point [Gateway]
immediately sold Petitioner's home to the Secretary of the Veterans Affairs
Administration [SecVet] for five dollars ($5.00), as evidenced by Petitioner in
both lower court records. Petitioner can only assume that this five dollar
($5.00) sale was a souvenir sale to the [VA] as the fraudulent Lis Pendens
filed against Petitioner did serve to short circuit the wrongful death suit
Petitioner had commenced through Counsel against [VA/MUSC] a month

15

BEFORE the state of South Carolina illegally granted a lien to [Gateway] on
Petitioner's property. (Ex, H)

CURRENT
17.

The State of South Carolina cost Petitioner nearly half a million

dollars in assets and hard currency by illegally granting [Gateway] a lien on
Petitioner's home, where none existed previously, without her knowledge or
consent. The state of South Carolina further damaged Petitioner when it
allowed [Gateway] to publicly file Lis Pendens against Petitioner where no
mortgage existed. The state of South Carolina intentionally short circuited
the wrongful death suit Petitioner had begun through counsel for her
husband's wrongful death, costing her potentially millions of dollars and a
life not choreographed around minimum wage jobs because of Petitioner's
limited formal education, disabilities and a poor credit history caused by the
state of South Carolina and [Gateway].
a.)

Petitioner was a seventeen (17) year old runaway who

never went home. She never believed the skills she developed for survival at
seventeen would one day have to be resurrected and employed in order to
survive the abuses of an entire state.
b.)

If a baby powder company is responsible to pay twenty

two (22) women four (4) Million dollars for a potential connection between
life long use of its' product and ovarian cancer, then the state of South

16

Carolina, the entity providing bond and insurance to the Medical University
of South Carolina [MUSC] at the time of Petitioner's husband's death,
through the state of South Carolina's Insurance Fund, is responsible to
proportionally compensate Petitioner for her husband's wrongful death
caused by the illegal procedure performed on her husband, as listed on his
death certificate for a service connected medical condition, caused by
[VA/MUSC's] use of a federally banned surgical procedure, just seventy nine
hours after Petitioner's husband was released from [VA]/[MUSC] health
system with a "clean bill of health". It's all "one dollar", Petitioner is not
concerned with which door it may "walk through".
c.)

It was not lost on Petitioner that the medical providers

who illegally performed the federally banned procedure on her husband that
caused his death, saw something so different than the doctor who signed
Petitioner's husband's death certificate upon Petitioner's husband's death
just seventy nine (79) hours after being released from [VA]/[MUSC].

18.

Petitioner literally lost nearly everything she had and her potential

future when South Carolina violated her 14th Amendment right to Due
Process over and over again for its' own financial benefit, when it violated her
Privacy and her 4th Amendment Right to Privacy, her 5th Amendment right
to a fair trial, her 8th Amendment right to be spared from excessive bond/

17

surety, her right(s) to Equal Justice and the Supremacy clause of our
Constitution and to its' own Constitution.

19.

Petitioner has spent five (5) years being dragged sideways through

Hell, five (5) years lost which she can never get back, first watching her
husband die a torturous death at the hands of capricious doctors not
concerned with the life of a service connected disabled veteran; to waiting for
BCSO sheriff deputies to show up at her Beaufort, South Carolina, door to
wrongfully evict her from her rightful home; to watching her husband's life
insurance disappear as she fought an uphill battle for employment in a
military town with a fraudulent Lis Pendens in her back ground; to losing her
treasured possessions when she just couldn't "carry them" back to Indiana; to
being literally starved in Indiana, financially saved, temporarily, only by the
grace of God and a hit and run car accident. The state of South Carolina did
more than violate Petitioner's Constitutional rights, the state of South
Carolina did everything it could to destroy Petitioner to protect [VA/MUSC]
from public suit as clearly the state of South Carolina believes Petitioner is
not a person but an animal that has no rights.
a.)

Generally citing U.S. v. Levesque, 546 F3d 78, 8-85 (1st Cir

2008) "No fine shall deprive a defendant of future livelihood or the ability to
generate an income". [Gateway's] illegal Lis Pendens action forced Petitioner
to financially struggle without access to employment in a small military town

18

and forced Petitioner to go without many of the basic necessities of life that
people take for granted every day.

20.

When Petitioner initially filed suit against the state of South Carolina

{Coffey v. State ofSouth Carolina, P19-CV-3064-TWP DPL) she could barely
think or speak after such abuses, and that suit failed as it should have,
without prejudice, NOT because the state of South Carolina enjoyed
Sovereign Immunity, as it DID NOT enjoy Sovereign Immunity even then,
but because Petitioner was too traumatized BY the inexplicable and illegal
actions of the state of South Carolina, and from starvation, to properly
present herself within the confines of our Constitution and within our Courts.
All the evidence presented by Petitioner in that case applies to this case.

21.

Upon filing suit against the state of South Carolina a second time, in

January, 2020, never did Petitioner believe she would first have to battle the
District Court's prejudice BEFORE she could redress the state of South
Carolina for its' abuses. Petitioner is obviously not learned enough to
understand why any judge would believe that a judge is a person with
protected and inalienable Rights while believing Petitioner is just an animal
with no Rights.

19

22.

Petitioner filed her Notice of Intent to file an Appeal with the District

Court, Southern District Indiana, on June 26, 2020, and filed her Appeal
from Judgment to the 7th Circuit Court of Appeals shortly there after. Judge
James R. Sweeney filed his final Notice to Petitioner in August, 2020, in the
matter of Coffey v. State ofSouth Carolina, L20-CV-0006-JRS-MJD.
a.)

Judge James R. Sweeney invoked the murky cloak of

Sovereign Immunity in the face of suit filed by a litigant whom he
determined was under represented and who, therefore, had no Rights in his
eyes. In Timbs v. the state ofIndiana, Mr. Timbs, his Range Rover and
"their" right(s) were supported by the Brief of the American Bar Association
As Amicus Curiae in Support of Petitioner Tyson Timbs (Sept 11, 2018)
stating that/ "The ABA has long recognized that lawyers have a special
obligation to act as stewards of the system of justice."
b.)

Judge James R. Sweeney IS a lawyer who intentionally

sacrificed Petitioner's Right(s) for the comfort of his court because he was
faced with an under represented litigant. ALL litigants are supposed to have
Equal Right(s) in America.
c.)

As a road service mechanic for 12 years, Petitioner was

often asked about how to fix a vehicle by those who wished to try and fix their
own cars because of financial position. Petitioner did never intentionally lie
about a repair just because a car mechanic wasn't getting paid for the work.

20

23.

Initially, the 7th Circuit Court of Appeals upheld Judge James R.

Sweeney's assessment that Petitioner is an animal with no Rights in America
thereby ensuring that the state of South Carolina enjoys Sovereign
Immunity. Upon Notice of its' decision, Petitioner timely requested a
rehearing because it is unfathomable to Petitioner that three (3) judges,
tasked with upholding the laws of our Country, could so easily declare that a
person in America has no rights. Upon rehearing, the entire banc of the 7th
Circuit Court of Appeals unanimously decided Petitioner is an animal with
no Rights and gave no explanation for its' decision to, again, uphold the
wrongful and without standing Sovereign Immunity ruling of the District
Court.
a.)

Of note. Petitioner has been barred from utilizing PACER

throughout the entirety of these proceedings, as evidenced to the lower
courts. With no money to pay for counsel and no access to PACER. Petitioner
has been forced to fight for her Rights without equal access. This isn't what
America was founded for but exactly what America was founded to fight.

i.)

Petitioner still does not have access to PACER. Petitioner

does not have the access to the internet outside of a sixty (60) minute daily
window allowed by the Indianapolis public library, and her sketchy, prepaid
cell phone. Petitioner does not have a printer. Petitioner's laptop is actually
older than her grandson.

21

ii.)

Petitioner can file nothing via PACER and cannot reliably

receive anything through or from PACER or CM/ECF
iii)

Petitioner was stripped of her income and her income

potential by the state of South Carolina and then expected to fight for her
rights without means.

ADDITIONALLY
24.

When an individual is arrested, no one should have to go before a judge

and prove that an arrested person has Miranda rights because Miranda
Rights are our laws, our Rights, Miranda v. Arizona 136 S. Ct. 540 (1966). A
male American terrorist has the Right to pray in a manner prescribed by his
religion during incarceration because it is his Right in America to be treated
equally, i.e, he could not be denied equal congregation for prayer as those
prisoners who congregated for exercise and entertainment, citing Hon. Jane
Magnus Stinson, Lindh v. Warden, 09-cv00215 (S.D. Ind). Mass murderer,
Dylann Roof, after slaughtering nine (9) innocent parishioners in a
Charleston, South Carolina, church, was guaranteed his rights to Due
Process (2018). Dreasjon Reed, in death, has been protected by his Due
Process rights by Hon. Jane Magnus Stinson (2020). Tyson Timbs and HIS
2012 Range Rover have the Right to Due Process (S. Ct. 2019). All of these
examples have one thing in common which separates them from L.E. Pauli
Coffey v. the state of South Carolina. They are all cases where males with no

22

physical disabilities, Mr. Reed notwithstanding as he is deceased, had their
Rights restored or upheld by federal courts while Petitioner, a female with
disabilities, has been repeatedly denied equal rights, equal justice, and equal
access, sometimes by the same courts, to her great detriment and causing her
extreme harm.

25.

Petitioner is a person and as such she has Rights that have been

violated, first, by the state of South Carolina and then by the District Court
and the 7th Circuit Court of Appeals that prevented her from exercising her
Right to redress the state of South Carolina as Petitioner could not eclipse
the discrimination and prejudice she faced in every court she entered because
she entered those courts alone. Had Petitioner had the means to enter those
Courts with representation, she would have gladly done so, but the state of
South Carolina made sure that financial reality wasn't possible. As
Petitioner prepares this document she sits in an Indiana home in an Indiana
winter with no heat because the means to repair her furnace were stolen from
her BY the state of South Carolina without whom [Gateway] could never
have secured a fraudulent lien leading to a fraudulent Lis Pendens action
against Petitioner costing her nearly everything she had including a more
promising future. Additionally, Petitioner is still fighting for her [V.A.]
benefits which her husband earned for her in his service and in his service
connected death.

23

26.

Further, upon deciding Petitioner is an animal and not a person with

Rights and then wrongfully gifting the state of South Carolina Sovereign
Immunity from suit because of their professional assessment that Petitioner
is an animal and not a person, neither the District Court nor the 7th Circuit
Court of Appeals ever required the state of South Carolina to respond in
compliance with the Federal Rules of Civil Procedure Rule 12. The federal
rules of Evidence (301) demand that, "In a civil case, unless federal or these
rules provide otherwise, the party against whom a presumption is directed
has the burden of producing evidence to rebutt the presumption".

27.

Petitioner did timely service Notice of Suit upon the state of South

Carolina through USPS 1st class mail, and did timely serve not only evidence
of service hut evidence of receipt of service upon the District Court, and the
state of South Carolina never responded. No where in the Federal Rules of
Civil Procedure does it state that a party against whom a presumption is
directed has the luxury to ignore Notice AND Suit and simply not respond in
order to evade suit. No where does it say that a judge must first wink and
nod in the general direction of a defendant before that defendant is compelled
to respond. Defendant, the state of South Carolina, refused to timely respond
BEFORE the District Court wrongfully gifted it Sovereign Immunity and,
therefore the state of South Carolina loses as a matter of Civil Procedure.

24

Also, the state of South Carolina refused to timely file an appeal to avoid it's
refusal to respond AND refused, nor was it compelled, to respond to
Petitioner's Appeal.
a.)

No Court in America can rule that BECAUSE a litigant

has not attained a specific level of proficiency in a particular vernacular, that
litigant has no rights.

28.

Petitioner's suit, as referenced in the above captioned matter, meets all

three points of Article III in that she was the only owner of her home that
was illegally taken from her through the violation of her Rights and that
Petitioner particularly incurred nearly unparalleled and well documented
concrete harm and loss. (Generally citing Justice Clarence Thomas, Spokeo v.
Robins, 136 S.Ct 1540 (2016); " A Petitioner must show that they were
particularly harmed and suffered concrete injury and that they would have a
favorable outcome through redress.")
a.) Petitioner will never be the same.

29.

Had Petitioner walked into Federal District Court, Southern District

Indiana, arm in arm with Mark Cuban's real estate attorney, the Court
would have followed every rule to the letter of the law and Petitioner would
have been immediately victorious in her pursuit of her Rights and
compensation for her losses. Petitioner would never have had cause to file an

25

Appeal with the 7th Circuit Court of Appeals. BECAUSE Petitioner, a
woman with disabilities, walked into Court alone, she was declared an
animal/ a population not worthy of her Rights by individuals who do not
regularly sleep in homes with no heat.
a.)

Fed R. Civ. P. goes to great lengths to make sure that it is

clear that no special language is necessary in order to file a claim upon which
relief may be sought. This was done for the purpose of preventing what can
be declared tantamount to Constitutional Eugenics. Our Rights, our laws
and our courts are meant for all of us. For the lower courts to merely decide,
and act on that decision, that only certain people may address a defendant in
court and be heard to the extent that a response is required, is a violation of
Petitioner's 1st Amendment Right to speak and be heard and it has harmed
Petitioner. It is a travesty in and to America. It is Constitutional Eugenics.

30.

This Court must grant this Writ for Certiorari BECAUSE; the state of

South Carolina does not enjoy the Sovereign Immunity to violate Petitioner's
privacy and violated her 4th Amendment Right to be free from illegal search
and seizure, Wooden v. United States ofAmerica (20-5279). This Court must
grant the writ of Certiorari because the state of South Carolina does not
enjoy the Sovereign Immunity to violate Petitioner's Right to be free from
excessive fines by requiring that she produce a bond to the state of South
Carolina in the amount of $700,000.00 as bond/surety to prevent her home

26

from being sold during appeal on a fake foreclosure valued at only
$109,000.00, Timbs and his 2012 Range Rover v. state ofIndiana, 17-1091 in
the Supreme Court of the United States of America (2019). The state of
South Carolina Does not enjoy the Sovereign Immunity to violate petitioner's
right to a jury trial. Despite IT'S myriad records and it's own Constitution,
the State of South Carolina violated Petitioner's right(s) to Due Process and it
does not have the Sovereign Immunity to do so without punitive consequence.
This Court must grant this Writ of Certiorari because this Court has
made clear that states do not enjoy Sovereign Immunity to violate a citizen's
Due Process or his/her 14th Amendment right to Due Process and the lower
Court(s) did not apply that standard to Petitioner's case(s).

CONCLUSION
31.

This Petition for a Writ of Certiorari should be granted.

a.)

The decision of the 7th Circuit Court of Appeals, that the

state of South Carolina enjoys Sovereign Immunity to violate Petitioner's Due
Process and her 14th Amendment Right(s) to Due Process, vitiates prevailing
decisions of this Court, the 1st Circuit Court of Appeals and the U.S. District
Court of the Southern District of Indiana, just to cite a few. The US District

27

Court, Southern District Indiana, segregated Petitioner into a population of
her own, a female litigant with disabilities and no means, and then unfairly
ruled in contradiction to prevailing law including, but not limited to,
Williams v. Illinois 399 US 235. 236-37 (1970) . No person in America should
ever have to fight this battle just to regain his or her Rights. Petitioner has
found herself at the Supreme Court of the United States of America, alone,
because she is a population of one person. As it is obvious that Petitioner
cannot get a fair trial in the states of Indiana and South Carolina, or the in
the 7th Circuit Court of Appeals, Petitioner prays this court will vacate the
decision(s) of the District Court, Southern District Indiana, and the 7th
Circuit Court of Appeals and find for Petitioner and order the state of South
Carolina to immediately and appropriately compensate Petitioner for her
losses and her pain and suffering, making Petitioner as whole as she can be
as a widow, so that Petitioner may have her life back and so that she may
begin living again as a person rather than as an animal.

Petitioner is a person who has equal rights and value.
Petitioner is not an animal.
Respectfully submitted under penalty ofperjury
^UE. Pauli Coffe;

3493 Birchwood Ave.
Indianapolis, IN 46205
305-340-8316

28

Distributed via USPS first class to:
State of South Carolina
Attn: A.G. Alan Wilson
1000 Assembly St #519
Columbia, SC
29201

29

•

a

r

3*

£

3
3
1
;

INDEX TO APPENDICES
APPENDIX A
7th Circuit Court of Appeals Orders) Every Damn Judge presiding

i

November 9, 2020

1

■/

t

US District Court Orders; Judge James R. Sweeney presiding

■l

.4
1

A

March 24, 2020

i

APPENDIX B

)

The Judicial Conference to the United States
March 16, 2021
Beaufort County, South Carolina. Court of Common Pleas,
April 2019

3

Gateway Atty/ South Carolina Special

1

;V
■;

Referee Rubin Thayer Rivers Jr.
Report on Sale and Order Confirming Sale
(Non-Jury Mortgage Foreclosure)
Beaufort County. South Carolina. Court of Common Pleas Judgment and
Orders;

;

September 21, 2018
1

Gateway atty/ S.C Special Referee! Rubin Thayer Rivers presiding,

■

f
'A

S

V

?

,5
|

t

30

$

t
4

^ . -A—

,£i

14th Circuit Court of South Carolina
August 15, 2017

Gateway Mortgage Group LLC atty John Brian Kelchner's appointment of
Special Referee, Rubin Thayer Rivers Jr, counsel for Gateway Mortgage
Group LLC to adjudicator in the matter of Gateway v. Coffey.

Beaufort County. South Carolina. Recorder of Deeds [RODl
February 05, 2016 10:41am

General Warranty Deed
1707 Palmetto Dr, Beaufort SC 29902
February 05, 2016 10:41am
Book 3459/ Page 3104
CFN#2016005336
State Of South Carolina Court Public Index Case Nos.
2016-LP-07-00637 pg 8
2016-CP-07-02261 pg 8
Thirty three (33) demands for Due Process denied
Three (3) Jury Demands denied
Notice of completion of Probate RE: Chris A. Smock
February 15, 2016 pg. 7
APPENDIX C
1.

MCAS Beaufort Employment Notice

31

2.

John Michael Kelchner correspondence

3.

Beaufort County Tax Record July 17, 2019

32

TABLE OF AUTHORITIES

Brief of the American Bar Association As Amicus Curiae in Support of
Petitioner Tyson Timbs (Sept 11, 2018) pg 20
Judicial Conference of the United States (March 16, 2021) pg 5
Lindh v. Warden, 09-cv-00215 (S.D. Ind 2011) pg. 22
Miranda v. state ofArizona, 384 U.S. 436 (1966) pg 22
Spokeo v. Robins,

136 S Ct 540 (2016) pg 25

Timbs and his 2012 Range Rover v. state ofIndiana, 17-1091 in the
Supreme Court of the United States of America (2019) pg. 7, 13, 27
U.S. v. Levesque, 546 F 3d 78, 83-85 (1st Cir. 2008) pg. 18
399 US 235-236-37 (1970) pg. 28

Williams v. Illinois
Wooden v. USA

20-5279 (filed Jul 24, 2020) pg. 26

Dodd Frank Act pg. 8, 12

Fed. R. Civ. P. § 12 pg. 24
Fed Rules of Evidence § 301 pg. 24
Glanvill's Treastise (appx circa 1188) pg. 11
Constitution of the state of South Carolina Article § 3 pg. 11
Constitution of the state of South Carolina Article § 9 pg. 11
Constitution of the state of South Carolina Article § 10 pg. 7
Constitution of the state of South Carolina Article § 12 pg. 7

33

Federal Land Bank v. Ledford, 9 SE 2d 804 (South Carolina 1940)
pg-12
South Carolina issued Real Estate Essentials manual (2018) pg. 12
RE: Smock Beaufort Probate Ct. Beaufort, South Carolina (2016)
pg. , Appended B; pg 7.

34

